gravel &

SNE |Jarrornevs at raw

A PROFESSIONAL CORPORATION

76 St. Paul Street
P.O. Box 369

Burlington, Vermont (05402-0369

  

Telephone 802.658.0220 Matthew B. Byrne
Facsimile 802.658.1456 Shareholder
www.gravelshea.com mbyrne@gravelshea.com

October 1, 2019

Associate Justice Ruth Bader Ginsburg
1 First Street, N.E.
Washington D.C. 20543

Re: Sequoia Capital Operations, LLC v. Gingras, et al., No. 19-331
Dear Justice Ginsburg:

Pursuant to Rule 30.4, the respondents request that the Court extend the time within which
to respond to the petition for certiorari by forty-five (45) days, to and including Tuesday,
November 26, 2019. Petitioners filed the petition for certiorari on September 11, 2019. The brief
in opposition is currently due on October 11, 2019.

Under Rule 15, “Counsel are admonished that they have an obligation to the Court to point
out in the brief in opposition, and not later, any perceived misstatements made in the petition.”
Some of the information necessary to do that is currently restricted by a protective order filed in
the North District of Texas Bankruptcy Court in the case of Jn re Think Finance, No. 17-33964.
Respondents have started the process to obtain that information either through a motion to modify
the protective order or a stipulation with the debtor. On September 16, 2019, Respondents
requested that Petitioners join the motion before the bankruptcy court. On September 26, 2019,
Petitioners responded that they would not join the motion at this time. Given that the motion will
be contested, it may take some time to resolve.

In addition, Counsel for Respondents had to argue a case before the Vermont Supreme
Court on September 17, 2019. Respondents’ counsel was engaged to present the argument prior
to the time that he was aware of the petition for certiorari.

Counsel also must file findings of fact and conclusions of law for a case pending in the
Vermont Superior Court by September 30, 2019. Respondents’ counsel was the sole attorney who
tried the case for which the last day of trial was in late August. He is the only attorney ina position
to complete the findings of fact and conclusions of law. His obligations to this case preexisted his
knowledge of the petition for certiorari.
gravel &

SNC a Jarrorneys at raw

Associate Justice Ruth Bader Ginsburg October 1, 2019
Page 2

These and other tasks have made it difficult to prepare a proper response to the petition.
Very truly yours,

GRAVEL & SHEA P}

Matthew B. Byrne

MBB:1bb

ce: Steven J. Buttacavoli, Esq., sbuttacavoli@bermantabacco.com
Shirley M. Chan, Esq., smchan@JonesDay.com

Kathleen M. Donovan-Maher, Esq., kdonovanmaher@bermantabacco.com
Todd Raymond Geremia, Esq., trgermia@JonesDay.com

Steven L. Groopman, Esq., sgroopman@bermantabacco.com

James M. Gross, Esq., jgross@JonesDay.com

Stephen D. Hibbard, Esq., sdhibbard@JonesDay.com

Anne F, O’Berry, Esq., aoberry@bermandevalerio.com
